OIG Investigative Reports, Boston, MA 12/11/2009- Vocational School Employee Admits Making False Statements
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Carmen M. Ortiz
District of Massachusetts
FOR IMMEDIATE RELEASE
FRIDAY, DECEMBER 11, 2009
http://www.usdoj.gov/usao/ma
CONTACT: CHRISTINA DiIORIO-STERLINGPhone: (617)748-3356email: USAMA.MEDIA@USDOJ.GOV
VOCATIONAL SCHOOL EMPLOYEE ADMITS MAKING FALSE STATEMENTS
BOSTON, MA - A Bradford man pled guilty yesterday to a one-count information filed in federal court, accusing him of making false statements to the federal government.
United States Attorney Carmen M. Ortiz; Brian M. Hickey, Special Agent in Charge of the federal Department of Education’s Office of Inspector General; and Gregory W. Sullivan, Inspector General of the Massachusetts Department of Education, announced today that JOSEPH GIORDANO, age 63, of Bradford, MA, pled guilty to a single count of making a false statement relating to a scheme in which GIORDANO used his position as the Coordinator of Community Education at Whittier Regional Vocational-Technical School (“Whittier”), to obtain funds provided to the school under federal grants. GIORDANO did this by creating a company, MDG Education which he controlled, and approving invoices from MDG to Whittier for services relating to faculty enrichment courses. MDG was not a Whittier-approved vendor. The services supposedly provided by MDG were services that GIORDANO typically performed in the course of his usual duties for Whittier. GIORDANO, through MDG, billed Whittier at a higher rate than Whittier would have paid for faculty enrichment courses had there been no MDG involvement.
GIORDANO faces up to 5 years of imprisonment and a $250,000 fine. As part of a plea agreement with the federal government, GIORDANO has agreed to pay back $15,049.00 that he wrongfully obtained, plus a $10,000.00 fine. In addition, GIORDANO agreed to a three-year period of probation.
The case was investigated by both the federal and state Departments of Education. It is being prosecuted by Assistant U.S. Attorney Thomas E. Kanwit of Ortiz's Major Crimes Unit.
Printable view
Last Modified: 12/16/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov